No. ____________
IN THE

~uprenre Olnurt nf tqe ~uiteo ~tates
PABLO BASTIDAS,

Petitioner,
v.
MATTHEW ATCHLEY, WARDEN,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
CUAUHTEMOC ORTEGA
Federal Public Defender
MICHAEL D. WEINSTEIN*
MARK R. DROZDOWSKI
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Michael_Weinstein@fd.org
Mark_Drozdowski@fd.org
Attorneys for Petitioner
*Counsel of Record

This is a non-capital habeas case brought under 28 U.S.C. ยง 2254. The
petitioner, Pablo Bastidas, requests leave to file the attached Petition for Writ of
Certiorari to the United States Court of Appeals for the Ninth Circuit without
prepayment of costs and to proceed in forma pauperis. He brings this motion under
Rule 39.1 of the Rules of the Supreme Court of the United States.
In 2013, the Ninth Circuit Court of Appeals granted Bastidas's motion to
proceed in forma pauperis based on his indigency, and, under the Criminal Justice
Act, appointed the Office of the Federal Public Defender for the Central District of
California to represent Bastidas in his federal habeas appeal. See 18 U.S.C. ยง
3006(B). The Criminal Justice Act entitles Bastidas to representation at "every
stage of the proceedings," including this one. See 18 U.S.C. ยง 3006A(c).
Respectfully submitted,
C UAUHTEM0C ORTEGA

Federal Public Defender

DATED: May 5, 2021
EIN*
OWSKI

Deputy Federal Public Defenders
Attorneys for Petitioner
*Counsel of Record

1

